Report No. D-2008-067         March 31, 2008




    DoD Procurement Policy for Body Armor
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

CENTCOM               U.S. Central Command
DAPs                  Deltoid and Axillary Protectors
DFARS                 Defense Federal Acquisition Regulation Supplement
ESBIs                 Enhanced Side Ballistic Inserts
FAR                   Federal Acquisition Regulation
FAT                   First Article Testing
FSS                   Federal Supply Schedule
GSA                   General Services Administration
IBA                   Interceptor Body Armor
ICE                   Infantry Combat Equipment
IG                    Inspector General
MCSC                  Marine Corps Systems Command
OTV                   Outer Tactical Vest
PDM                   Preliminary Design Models
PEO                   Program Executive Office
PM ICE                Program Manager Infantry Combat Equipment
PM SEQ                Project Manager Soldier Equipment
RDECOMAC              U.S. Army Research, Development and Engineering Command
                         Acquisition Center
SAPIs                 Small Arms Protective Inserts
SOUM                  Safety of Use Message
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704

                                                                           March 31, 2008

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF T,HE ARMY
               PROGRAM EXECUTIVE OFFICE SOLDIER
               COMMANDER, U.S. ARMY RESEARCH, DEVELOPMENT
                 AND ENGINEERING COMMAND

SUBJECT: Report on DoD Procurement Policy for Body Armor,
         (Report No. D-2008-067)


        Weare providing this report for review and comment. This report is the second in
a series of congressionally requested audits. We considered management comments on ,
the draft when preparing the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The comments from the Deputy Assistant Secretary of the Army (Policy and
Procurement), responding for the 'Assistant Secretary of the Army (Acquisition, Logistics,
and Technology) are partially responsive. The comments from the Program Executive
Office Soldier are nonresponsive. Therefore, we request that the Assistant Secretary of
the Army (Acquisition, Logistics, and T'echnology) and the Program Executive Office
Soldier provide additional comments on Recommendations 3. and 1., respectively, by
April 30, 2008. As a result of comments from the Commander, U.S. Army Research,
Development and Engineering Command, we revised draft Recommendation 2. to show
the correct command structure. The Commander's comments were responsive and no
further comments are required.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to A'U'DROS@dodig.nlil. Copies of the management comments must
contain the signature of the authorizing official. We cannot accept the / Signed / symbol
in place of the signature. If you arrange to send classified comments electronically, they
must be sent over the SECRET Internet Protocol Router Network (SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed
to me at (703) 604-8863 (DSN 664-8863) or Mr. Kenneth W. Sokol at (703) 602-0676
(DSN 332-0676). The team members are listed inside the back cover. See Appendix H
for the report distribution.



                                            J~;xJ N--IIATrT"~J~
                                             Donald A. BI orner
                                             Deputy Director
                                             Joint and Overseas Operations
               Department of Defense Office of Inspector General
Report No. D-2008-067                                                   March 31, 2008
  (Project No. D2007-D000LA-0054.000)

                  DoD Procurement Policy for Body Armor

                                Executive Summary

Who Should Read This Report and Why? DoD acquisition and contracting personnel
should read this report because it concerns procurement decisions for body armor
components used by DoD in the Global War on Terror.

Background. A member of Congress asked the DoD Office of Inspector General to
review DoD procurement of body armor and armored vehicles to determine whether
officials followed contracting policies. In addition, the member asked the DoD Office of
Inspector General to provide information on why DoD issued contracts to Armor
Holdings and Force Protection and to determine the effect the Army’s ban on privately
procured body armor had on the safety of our Service members. This is the second of
two reports issued in response to the request. This report discusses the procurement of
various body armor components by the Army and the Marine Corps, and the effect of the
ban on privately procured body armor (Appendix C). The first report,
Report No. D-2007-107, “Procurement Policy for Armored Vehicles,” June 27, 2007,
covered the procurement policy for armored vehicles and why DoD issued contracts for
armored vehicles to Armor Holdings and Force Protection.

Results. The Army and Marine Corps issued contracts and Federal Supply Schedule
orders valued at more than $5.2 billion for body armor components. The Federal
Acquisition Regulation requires contracting organizations to maintain adequate contract
documentation to provide a complete acquisition history. Specific information
concerning testing and approval of first articles was not included in 13 of 28 Army
contracts and orders reviewed, and contracting files were not maintained in 11 of 28
Army contracts to show why procurement decisions were made. As a result, DoD has no
assurance that first articles produced under 13 of the 28 contracts and orders reviewed
met the required standards, or that 11 of the 28 contracts were awarded based on
informed procurement decisions. We recommended that the Program Executive Office
Soldier direct testing and evaluation of first articles for contract conformance before
production on all contracts, update purchase descriptions, and document contractual
actions for all body armor contracts. In addition, we recommended that the U.S. Army
Research, Development and Engineering Command ensure First Article Testing
instructions are included in contracting documents when applicable, and document
contractual actions. We also recommended that the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology) ensure proper use of non-DoD contracts to
ensure that the contracts are in the best interest of the Government. Recommendations in
this report, if implemented, will correct deficiencies identified, and ensure the DoD
receives the best value in the body armor it procures. See the Finding section for the
detailed recommendations.

Scope Limitations. The audit scope was limited to Army and Marine Corps contracts
and orders awarded between January 2004 and December 2006 for body armor
components. We divided the acquisition process into three phases: presolicitation,
solicitation and evaluation, and contract administration. The scope was limited to
reviewing the presolicitation and the solicitation and evaluation phases of the acquisition
process for specific contracts. We also reviewed contracting files as necessary to
determine requirements for First Article Testing. We did not evaluate the contract
administration phase of the acquisition process, which includes activities performed after
contract award, such as quality control and testing,1 deliverable requirements, and
monitoring and measuring performance and end-user satisfaction, to determine whether
the contractor met the requirements of the contract. We also did not visit contractor
facilities during the audit. See Appendix F for a summary of the contracts reviewed.

Management Comments and Audit Response. The Program Executive Office Soldier
neither concurred nor nonconcurred with Recommendation 1. Specifically, the Program
Executive Office Soldier stated that for Recommendations 1.a., 1.b., and 1.c. no action
would be required because all of the recommended actions are already regular and
consistent current business practices that his office follows in accordance with the
Federal Acquisition Regulation. However, our audit results show that testing and
evaluation of first articles for contract conformance before production, updating of
purchase descriptions, and documenting of all contractual actions for all body armor
contracts are not consistently occurring. The Program Executive Office Soldier also
provided comments on the draft report and finding, and stated that although not in the
scope of our audit, the Army also conducts lot acceptance testing and post issue
surveillance testing, both critical parts of the body armor testing program. In an
additional meeting with Army officials, the Program Executive Office Soldier stated that
the Army has no evidence of deaths that can be attributed to defective body armor. We
request that the Program Executive Office Soldier provide additional comments on
Recommendations 1.a., 1.b., and 1.c. in response to the final report by April 30, 2008.

The Commander, U.S. Army Research, Development and Engineering Command
concurred with Recommendation 2. The Commander also provided comments on the
draft report and finding. The comments of the Commander, U.S. Army Research,
Development and Engineering Command on the recommendation were responsive, and
no additional comments are required.

The Deputy Assistant Secretary of the Army (Policy and Procurement), responding for
the Assistant Secretary of the Army (Acquisition, Logistics, and Technology), concurred
with Recommendation 3. Although he concurred, the Deputy Assistant Secretary’s
comments are only partially responsive because he did not identify what actions will be
taken to ensure that policies and procedures are enforced. We request that the Assistant
Secretary of the Army (Acquisition, Logistics, and Technology) provide additional
comments that address the proposed actions for Recommendations 3.a.1., 3.a.2., 3.a.3.,
and 3.a.4. in response to the final report by April 30, 2008. A discussion of the
management comments is in the Finding section of the report; the complete text of the
comments is in the Management Comments section; and management comments on the
draft report and finding, along with audit response, are in Appendix G.




1
    Quality control and testing (acceptance testing) involves testing each item or manufacturing lot of items
    to verify that each particular item meets its specification requirements. The purpose of acceptance testing
    is to catch random defects on a particular item that are not systemic in the manufacturing process;
    because of our scope limitation, we did not examine acceptance testing.



                                                        ii
Table of Contents

Executive Summary                                                                i

Background                                                                       1

Objectives                                                                       2

Review of Internal Controls                                                      3

Procurement History for Body Armor                                               4


Findings
     Army Procurement of Body Armor                                              9

Appendixes
     A. Scope and Methodology                                                   20
          Prior Coverage                                                        21
     B. Congressional Request                                                   23
     C. Effect of Body Armor Ban                                                25
     D. Guidance for Contracting Officers                                       28
     E. Interceptor Body Armor                                                  30
     F. Summary of Interceptor Body Armor Contracts Reviewed                    31
     G. Management Comments on the Draft Report and Audit Response              36
     H. Report Distribution                                                     46

Management Comments
     Assistant Secretary of the Army (Acquisition, Logistics, and Technology)   49
     Program Executive Office Soldier                                           51
     U.S. Army Research, Development and Engineering Command                    55
Background
           This report responds to inquiries by Congresswoman Louise M. Slaughter,
           28th District, New York (Appendix B). Congresswoman Slaughter asked the DoD
           Office of Inspector General (IG) to review DoD procurement of body armor and
           armored vehicles to determine whether officials followed contracting policies.
           Congresswoman Slaughter also requested specific information on the effect the
           Army’s ban on privately procured body armor had on the safety of the warfighter.
           This is the second of two audit reports issued in response to her request. This
           report discusses the procurement of various body armor components by the Army
           and the Marine Corps. The first audit report covered the procurement policy for
           armored vehicles and why DoD issued contracts for armored vehicles to Armor
           Holdings and Force Protection.2

           Interceptor Body Armor. Interceptor Body Armor (IBA) is a vest protecting the
           upper torso from ballistic threats. It can be configured to defeat the predicted
           mission threat at minimum weight. IBA consists of:

                   •    an outer tactical vest (OTV), which includes the base vest, outershell
                        carrier, collar assembly, and throat and groin protectors;

                   •    deltoid and axillary protectors (DAPs) for the upper arm and underarm
                        that attach to the OTV and provide protection in the shoulder area;

                   •    small arms protective inserts (SAPIs), which are interchangeable
                        contoured plates inserted into front and back pockets on the OTV, and

                   •    enhanced side ballistic inserts (ESBI),3 a pair of carrier assemblies and
                        ballistic inserts. The carrier assemblies attach to the sides of the OTV.

           All of the components attach to the OTV. The OTV provides protection from
           conventional small arms munitions. Attachment points on the front of the OTV
           allow soldiers to carry a limited amount of equipment. See Appendix E for the
           various components of the IBA.

           Program Management and Contracting Responsibilities. The Project
           Manager Soldier Equipment (PM SEQ), under the Program Executive
           Office (PEO) Soldier, manages the Army’s acquisition of body armor
           components. The U.S. Army Research, Development and Engineering
           Command’s Acquisition Center (RDECOMAC) is the contracting activity for the
           Army contracts reviewed. The Program Manager Infantry Combat
           Equipment (PM ICE), under the Marine Corps Systems Command (MCSC),
           manages the Marine Corps’ acquisition of body armor components. The Office of
           the Assistant Commander for Contracts, MCSC, is the contracting activity for the
           Marine Corps contracts reviewed.


2
    Report No. D-2007-107, “Procurement Policy for Armored Vehicles,” June 27, 2007.
3
    The Marine Corps has also referred to the ESBI as the Secondary Small Arms Protective Insert (S-SAPI).



                                                     1
    Product Testing and Evaluation. Testing and evaluation occur throughout the
    acquisition process. Solicitations can require bid samples to be tested and
    evaluated against factors listed in the solicitation before contract award. The bid
    samples are evaluated against the evaluation factors in order to rank the different
    bid samples. The bid samples that represent the best value to the Government are
    awarded a contract. The bid samples are used to determine only the
    responsiveness of the bid and not to determine a bidder’s ability to produce the
    required items.

    After contract award, first article testing (FAT) can be performed to prove that the
    contractor can furnish a product that meets the contract specifications. The
    contracting officer can waive FAT if the contractor is already producing the item
    under contract. The contracting officer should include FAT instructions in the
    contract documentation to place responsibility on either the Government or the
    contractor to perform FAT.

    First Article Testing. The Federal Acquisition Regulation (FAR) Subpart 2.1,
    “Definitions,” March 9, 2005, defines the “first article” as an initial production
    sample, and FAT as a testing and evaluating process before or in the initial stage
    of production to determine whether the proposed product conforms with contract
    requirements. During FAT, the proposed product is evaluated to determine the
    contractor’s ability to produce a product that can meet or exceed evaluation
    criteria specified in the contract. FAT ensures that contractor-produced items:

           •   meet operational requirements,

           •   satisfy contractual requirements, and

           •   perform in a simulated working environment.

    FAR Subpart 9 “Contractor Qualifications,” January 3, 2006, explains that
    solicitations shall provide the performance specifications that the first article must
    meet for approval, the detailed technical requirements for the tests that must be
    performed for approval, and the necessary data that must be submitted to the
    Government in the first article test report. The FAR allows contracting officials
    to use their judgment as to when to require FAT, but advises contracting officers
    to use discretion on implementing FAT. Contracting officers should consider the
    risk to the Government if FAT is not required; the FAR recommends performing
    FAT on items described by performance specifications, such as body armor. FAT
    is also recommended on commercial items that will be fielded in an environment
    that is different from the one in which they were designed to work. See
    Appendix D for FAR guidance for contracting officers.


Objectives
    Our overall audit objectives were to evaluate: (1) the procurement history of body
    armor and (2) the effect that the Army’s decision to ban the use of personally
    purchased body armor had on the safety of Service members. See the Finding



                                          2
           section for discussion of objective (1), Appendix C for a discussion of objective
           (2), and Appendix A for a discussion of the scope and methodology and for prior
           coverage related to the objectives.


Scope Limitations
           The audit scope was limited to Army and Marine Corps contracts and orders
           awarded between January 2004 and December 2006 for body armor components.
           We divided the acquisition process into three phases: presolicitation, solicitation
           and evaluation, and contract administration. The scope was limited to reviewing
           the presolicitation and the solicitation and evaluation phases of the acquisition
           process for specific contracts. We also reviewed contracting files as necessary to
           determine requirements for FAT. We did not evaluate the contract administration
           phase of the acquisition process, which includes activities performed after
           contract award, such as quality control and testing,4 deliverable requirements, and
           monitoring and measuring performance and end-user satisfaction, to determine
           whether the contractor met the requirements of the contract. We also did not visit
           contractor facilities during the audit. See Appendix F for a summary of the
           contracts reviewed.


Review of Internal Controls
           We reviewed the adequacy of management controls as they applied to our audit
           objective. Specifically, we reviewed body armor component contract files to
           determine whether they contained the elements required by the FAR. We
           identified material internal control weaknesses at RDECOMAC, as defined by
           DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
           Procedures,” January 4, 2006. The weaknesses related to the documentation of
           FAT requirements and results in 13 of 28 Army contracts reviewed. Although
           RDECOMAC had internal control procedures in place, we identified weaknesses
           resulting in decisions not always being properly documented in the contract files.
           Specifically, RDECOMAC officials did not follow the FAR in maintaining
           contract files to support FAT decisions and results. Implementing our
           recommendations will improve the quality of the contract files to support
           informed decisions. A copy this report was provided to the senior official in
           charge of internal controls at RDECOMAC.




4
    Quality control and testing (acceptance testing) involves testing each item or manufacturing lot of items
    to verify that each particular item meets its specification requirements. The purpose of acceptance testing
    is to catch random defects on a particular item that are not systemic in the manufacturing process;
    because of our scope limitation, we did not examine acceptance testing.



                                                        3
Procurement History for Body Armor
           RDECOMAC and MCSC issued 35 contracts and 5 Federal Supply Schedule
           (FSS) orders valued at more than $5.2 billion between January 2004 and
           December 2006 for body armor components. Specifically, the Army and Marine
           Corps awarded:

                     •    21 full-and-open competitive contracts, valued at $4.8 billion;

                     •    7 sole-source contracts, valued at $143.9 million;

                     •    7 simplified acquisitions, valued at $10.0 million; and

                     •    5 FSS orders, valued at $301.1 million.

           The contracts were for components or modifications to IBA, such as enhanced
           ballistic protection and refurbishment of the existing system. In all, contracts
           were awarded to 14 manufacturers to provide the various individual components
           of body armor. The contracts either were for specific quantities of items or were
           indefinite-delivery, indefinite-quantity contracts.5 Appendix F contains a
           summary of the contracts reviewed.

           Outer Tactical Vests. The Army awarded one FSS order and one full-and-open
           competitive contract for OTVs, with a combined value of $214.7 million. The
           FSS order was in response to a July 1, 2004, Army Statement of Urgency to
           provide additional OTVs to deployed personnel. The Army awarded the full-and-
           open competitive contract for the initial and follow-on fielding of OTVs. (See
           Table 1.)


                         Table 1. Army Contracts and Orders for Outer Tactical Vests

                                         Contract/Order           Maximum            Contract Value
                  Contractor               Number                 Quantity            ($ millions)

            Point Blank Body
            Armor Inc.                W91CRB-04-F-0126               50,000                $24.76
            Point Blank Body
            Armor Inc.                W91CRB-05-D-0003              840,000                189.96
                    Total                                           890,000              $ 214.72


           Outer Tactical Vest Conversion Kits and Conversion Services. The Army
           awarded two simplified acquisitions and four full-and-open competitive contracts
           for OTV conversion kits and conversion services, with a combined value of

5
    An indefinite-quantity contract provides for an indefinite quantity, within stated limits, of supplies or
    services during a fixed period. The Government places orders to meet particular requirements as they
    arise. Quantity limits may be stated as number of units or as dollar values.



                                                          4
           $374.7 million. The Army initially fielded the OTV in woodland or desert
           camouflage patterns. In 2005, the Army changed the camouflage pattern of
           combat uniforms from woodland and desert camouflage to the universal
           camouflage pattern. The deviation in color scheme between the fielded OTVs
           and the soldiers’ new uniforms helped the enemy sight its target. The Army
           awarded the two simplified acquisitions in September 2005 to address this safety
           issue for deployed personnel. The Army then issued the four full-and-open
           competitive contracts to switch all OTVs to the new pattern. (See Table 2.)


                  Table 2. Army Contracts for OTV Conversion Services and Conversion Kits

                                                                  Maximum           Contract Value
                 Contractor            Contract Number            Quantity           ($ millions)

             Point Blank Body
             Armor Inc.             W91CRB-05-P-0204*               11,265                  $2.03
             Point Blank Body
             Armor Inc.             W91CRB-06-D-0024*               10,000                   1.90
             Point Blank Body
             Armor Inc.             W91CRB-05-P-0215                28,900                   4.99
             UNICOR Federal
             Prison Industries      W91CRB-06-D-0027               120,000                  24.40
             Point Blank Body
             Armor Inc.             W91CRB-06-D-0030               864,000                 169.43
             Specialty Defense      W91CRB-06-D-0031               864,000                 171.97
                    Total                                        1,898,165               $ 374.72
             * Contract was for conversion services.


           Deltoid and Axillary Protectors. The Army awarded one simplified acquisition
           and two FSS orders6 for DAPs, with a combined value of $245.3 million. In
           2004, the Army determined that IBA left the soldier vulnerable in the upper arm
           and underarm; DAPs were designed to counter the threat and increase the level of
           protection to the soldier. The Army awarded a simplified acquisition for the
           research and development of DAPs. Later, the Army placed the two FSS orders
           to meet the Army’s acquisition objective. (See Table 3.)




6
    Contract W91CRB-04-D-0014 was an order off the FSS according to the issuing contracting officer.
    Contracting actions were placed under GSA contract number GS-07F-8942D.



                                                     5
        Table 3. Army Contracts and Orders for Deltoid and Axillary Protectors

                                                     Maximum          Contract Value
     Contractor        Contract/Order Number         Quantity          ($ millions)

 Point Blank Body
 Armor Inc.                W91CRB-04-P-0169            10,000                $2.85
 Point Blank Body
 Armor Inc.              W91CRB-04-D-0014*            840,000               239.40
 Point Blank Body
 Armor Inc.                W91CRB-05-F-0072            96,000                  3.09
         Total                                        946,000              $ 245.34
 * Contract was FSS order.


Small Arms Protective Inserts. The Army and Marine Corps awarded
17 contracts and orders for SAPIs, with a combined value of $3.087 billion.
There were 11 full-and-open competitive contracts, 4 simplified acquisitions,
1 FSS order, and 1 sole-source contract. (See Table 4 for Army Contracts
and Table 5 for Marine Corps Contracts.)

The Army awarded 13 of the 17 contracts: 7 were full-and-open competitive
contracts, 4 were simplified acquisitions, 1 was an FSS order, and 1 was a sole-
source contract. The seven full-and-open competitive contracts were awarded in
2004, after the Army increased its acquisition objective. In an effort to meet the
new objective, the Army decided to maximize production capacity by awarding a
SAPI contract to all capable contractors. In 2005, the Army placed an FSS order
with a new contractor to increase output quickly. Afterward, the Army awarded
the sole-source contract to the new supplier. The contract was not competed
because all other capable contractors were already under contract to produce
SAPIs. The four simplified acquisitions were awarded for additional testing of
the SAPIs.

The Marine Corps awarded 4 of the 17 contracts; they were full-and-open
competitive contracts. These contracts were awarded in 2004 because of an
increase in the Marine Corps’ acquisition objective. The Marine Corps competed
the acquisition to identify new and multiple sources of supply.




                                      6
         Table 4. Army Contracts and Orders for Small Arms Protective Inserts

                                                       Maximum         Contract Value
        Contractor         Contract Number              Quantity        ($ millions)
  Ceradyne Inc.           W91CRB-04-D-0039             829,000              $461.00
  Armor Works LLC.        W91CRB-04-D-0040             829,000               461.00
  Force One, LLC.         W91CRB-04-D-0041             829,000               461.00
  Simula Inc.             W91CRB-04-D-0042             829,000               461.00
  Cercom Inc.             W91CRB-04-D-0043             829,000               424.47
  Composix Co.            W91CRB-04-D-0044             829,000               362.12
  Armacel Armor
  Corp.                   W91CRB-04-D-0045             829,000               204.46
  Protective Material
  Grp.                    W91CRB-05-F-0086              10,000                  14.96
  Simula Inc.             W91CRB-05-P-0147                  18                   0.01
  Cercom Inc.             W91CRB-05-P-0148                  15                   0.01
  Armacel Armor
  Corp.                   W91CRB-05-P-0159                  50                   0.04
  Patriot Performance     W91CRB-05-P-0191                  50                   0.03
  Protective Material
  Grp.                    W91CRB-06-D-0004              47,003                60.00
           Total                                     5,860,136             $2910.10




          Table 5. Marine Corps Contracts for Small Arms Protective Inserts
                                                                         Contract
                                                     Maximum               Value
       Contractor          Contract Number            Quantity          ($ millions)

  Armor Works LLC.         M67854-04-D-3005              80,000             $32.66
  Ceradyne Inc.            M67854-04-D-3116             120,000              41.25
  Simula Inc.              M67854-04-D-3117             120,000              54.06
  Armor Works LLC.         M67854-04-D-3118             120,000              48.96
         Total                                          440,000           $ 176.93


Enhanced Side Ballistic Inserts and Carriers. The Army and Marine Corps
awarded 12 contracts for ESBIs and carriers, valued at approximately
$1.315 billion. There were five full-and-open competitive contracts, six sole-
source contracts, and one FSS order. (See Table 6 for Army contracts and
Table 7 for Marine Corps contracts.)

The Army awarded 4 of the 12 contracts: 1 sole-source contract, 1 FSS order, and
2 full-and-open competitive contracts. The sole-source contract and the FSS
order were awarded to meet the requirement addressed in a September 12, 2005,


                                       7
Operational Needs Statement. That requirement was for additional protection
from bullet penetration to the side of the body. Afterward, the Army awarded the
two full-and-open competitive contracts to meet the Army’s acquisition objective.
(See Table 6.)

The Marine Corps awarded 8 of the 12 contracts: 5 sole-source contracts and
3 full-and-open competitive contracts. Three of the sole-source contracts were
awarded to meet a July 11, 2005, Urgent Statement of Need. Like the Army
Operational Needs Statement, the Urgent Statement of Need was to address
injuries and deaths of Marines caused by bullet penetration of the OTV on the
side of the body. The other two sole-source contracts were issued in response to a
change to the original Urgent Statement of Need, which increased the requirement
from 33,000 to 50,500. Afterward, the Marine Corps awarded three full-and-open
competitive contracts to meet the Marine Corps acquisition objective. (See
Table 7.)


 Table 6. Army Contracts and Orders for Enhanced Side Ballistic Inserts and Carriers

                                Contract/Order          Maximum        Contract Value
        Contractor                Number                Quantity        ($ millions)

 Ceradyne Inc.             W91CRB-06-C-0002              200,000            $70.00
 Ceradyne Inc.             W91CRB-06-D-0028            1,782,000            611.71
 Armor Works, LLC.         W91CRB-06-D-0029            1,782,000            543.07
 Point Blank Body
 Armor Inc.                W91CRB-06-F-0098              130,000             18.88
           Total                                       3,894,000         $1,243.66



   Table 7. Marine Corps Contracts for Enhanced Side Ballistic Inserts and Carriers

                                                        Maximum        Contract Value
        Contractor             Contract Number          Quantity        ($ millions)

 Ceradyne Inc.                M67854-05-C-3062           6,000              $1.56
 Source One Distributors      M67854-05-C-3063          12,000               2.11
 Diamondback Tactical         M67854-05-C-3065           6,000               2.42
 Ceradyne Inc.                M67854-06-C-3019          19,646               4.19
 Source One Distributors      M67854-06-C-3020          39,236               3.67
 Simula Inc.                  M67854-06-D-3031          78,420              23.92
 Armor Works, LLC.            M67854-06-D-3071          78,420              19.83
 Armor Works, LLC.            M67854-06-D-3072          52,279              13.22
           Total                                       292,001            $ 70.92




                                       8
                    Army Procurement of Body Armor
                    Army officials did not follow FAR requirements in procuring body armor
                    components. We identified deficiencies in 16 of the 28 contracts and
                    orders reviewed. Specifically, officials did not:

                              •   include requirements for or perform FAT of body armor
                                  components in 13 contracts and orders7, or

                              •   adequately maintain files for 11 contracts reviewed.

                    As a result, DoD has no assurance that first articles produced under 13 of
                    the 28 contracts and orders reviewed met the required standards, or that
                    11 of the 28 contracts were awarded based on informed procurement
                    decisions.


FAR Contract Requirements
           FAR Part 9, “Contractor Qualifications,” allows contracting officials to require
           contractors to perform FAT. Testing and approval offer proof that the product
           conforms to all contract requirements prior to acceptance. During testing, the
           specific product (for example, body armor components) is evaluated against
           performance and technical evaluation criteria specified in the contract and
           purchase description. Testing and approval of the first article occur after contract
           award.

           FAR Part 4, “Administrative Matters,” requires contracting officials to maintain
           adequate contract documentation. A contract file should constitute a complete
           history of the transaction and support actions taken, and provide a basis for
           informed decisions taken during the acquisition. Additionally, the contract file
           shall provide information for reviews and investigations and furnish essential
           facts in the event of litigation or congressional inquiries. The following are
           examples of the records normally contained, if applicable, in contracting files:

                    •    purchase request,

                    •    acquisition planning information,

                    •    solicitation and amendments,

                    •    list of sources solicited,


7
    With regard to first article testing, our review determined that instructions regarding testing and approval
    of first articles were not included in acquisition documents, and Army officials accepted preliminary
    design models as contractually compliant before contract award and production. Although not in the
    scope of our audit, the Program Executive Office Soldier stated that the Army also conducts lot
    acceptance testing and post issue surveillance testing, both critical parts of the body armor testing
    program.



                                                         9
              •   copy of each offer or quotation,

              •   source selection documentation,

              •   cost or pricing data and analysis,

              •   original signed contract or award and modifications,

              •   determination of the contractor’s responsibility (first article testing),

              •   contract completion documents, and

              •   any additional documents that reflect actions by the contracting officer
                  pertinent to the contract.

    Table 8 shows the number and types of deficiencies identified in Army contracts
    reviewed. Marine Corps contracts reviewed contained requirements for FAT and
    adequate documentation to support contractual decisions.


                      Table 8. Summary of Contract Deficiencies by Service


                                                      Deficiencies Identified

                                                                          Source-
                  Contracts                 Market       Acquisition     Selection   Discounts
     Service      Awarded*       FAT       Research         Plan           Plan      Requested

     Army             28          13           8              2                 1       2

     Marine
     Corps            12           0           0              0                 0        0

        Total         40          13           8              2                 1       2

     * See Appendix F for a complete list of the contracts.




FAT for Body Armor Procurements
    Army contracting officials did not require or perform FAT for 13 of the 28 Army
    contracts and orders reviewed. Specifically, instructions regarding testing and
    approval of first articles were not included in acquisition documents, and Army
    officials accepted Preliminary Design Models (PDMs) as contractually compliant
    before contract award and before production.




                                               10
           Contracting officers use FAT to reduce the risk of the Government receiving a
           product that does not conform to contract specifications. In all procurements,
           contracting officers must consider the risk to the Government, impact on time or
           cost, and the availability of less costly methods of quality assurance. These risks
           can be monetary and quantifiable or intangible. It is the responsibility of the
           contracting officer to mitigate these risks to ensure quality products are received
           from contractors and to protect DoD’s interests.

           Contract Requirements. Although Army contracting officials stated that they
           were aware of the requirement for FAT, it was not always included in contracts.
           For example, Contract W91CRB-06-C-0002 for ESBI is vague regarding FAT.
           The contract does not include FAR contract clause 52.209-4 for First Article
           Approval (FAT)—Government Testing.8 However, the purchase description for
           ESBI (CO/PD 06-20, dated January 12, 2006) states:
                     Unless otherwise specified in the contract or purchase order, the ESBI
                     supplier is responsible for all first article and conformance inspections
                     and tests herein.

           According to paragraph 4.2.1 of the ESBI purchase description, the contractor is
           required to perform FAT of a production item for the ESBIs unless the contract
           states otherwise. The contract includes an attachment describing FAT for ESBIs.
           Because the delivery schedule indicates a delivery of the ESBIs occurred on the
           same day the Army issued a letter stating that the ESBIs had passed FAT and
           authorizing production, we could not determine whether the testing performed
           was for preliminary design acceptance or for initial production authorization
           FAT.

           The contract also included a purchase description for IBA. The IBA purchase
           description did not include the same paragraph 4.2.1 as the ESBI purchase
           description. Lastly, the contract did not include an attachment with FAT
           instructions for the OTV.

           Production Authorization. Solicitation number W91CRB-04-R-0033, issued on
           May 19, 2004, required prospective contractors to submit PDMs for evaluation.
           The Government, using testing procedures in accordance with body armor
           purchase descriptions, conducted technical qualification testing for each offeror’s
           PDM.

           According to FAR Subpart 14.202-4, PDMs will be used to determine only the
           responsiveness of the bid and will not be used to determine a bidder’s ability to
           produce the required item. Further, PDMs may be examined for any required
           characteristic, whether or not such characteristic is adequately described in the
           specification.


8
    FAR Subpart 52.209-4, “First Article Approval—Government Testing,” June 28, 2006, states that the
    contracting officer shall insert a clause into the contract defining the number of units the contractor shall
    deliver within a predefined number of days from the date of this contract to the Government for FAT.
    The characteristics that the first article must meet and the testing requirements are specified elsewhere in
    the contract.



                                                        11
For this solicitation, RDECOMAC contracting officials issued FAT “production
is authorized” letters of approval based on bid responsiveness evaluation
procedures performed during source selection for six contracts awarded on
August 19, 2004. The “production is authorized” letters were issued to the
prospective contractors on August 5, 2004. After body armor contract award, first
article units produced at the contractor’s facility may not have been tested. There
is no evidence of FAT after contract award for those designs in the contracting
file. While testing and evaluation performed on the PDM may have followed the
same test procedures as a FAT, the bid sample was evaluated as part of source
selection, and the first article was not tested.

Waived Requirements. Contracts W91CRB-05-P-0204 and
W91CRB-06-D-0024 were awarded for the retrofit of OTVs returning from the
U.S. Central Command (CENTCOM) theater. The solicitation and contract
incorporated clauses requiring FAT. The solicitation required prospective
vendors to submit either PDMs for evaluation testing, or a certification stating
that the vendor had previously passed FAT. The statement of work was for
retrofitting OTVs; therefore, a certificate for FAT for manufacturing OTVs would
not apply to this process. Contracting officials should have required the
prospective vendors to submit the required units for preliminary design evaluation
testing as the solicitation requested.

When questioned, PM SEQ officials indicated that FAT would not be appropriate
for retrofitting services because this process does not involve new manufacturing.

Solicitation officials included FAT certifications or lack thereof as part of their
evaluations. The vendor that was awarded the contract submitted a FAT
certification from 1999 for the complete manufacture of OTVs. As a result, rating
officials evaluated the vendor’s “strengths” as “major” because all of the vendor’s
ballistic packages passed FAT. The rating officials evaluated a competing
vendor’s offer as “deficient” because the vendor would be required to pass FAT
for its ballistic packages. Subsequent Contract W91CRB-06-D-0024 was
awarded to the vendor based on the W91CRB-05-P-0204 contract award and the
FAT certification from 1999. Further, neither of these contract files contained
any evidence that any testing and evaluation occurred on these products after
contract award. As a result, the Army purchased 21,265 retrofitted OTVs that
were not tested under testing and evaluation protocols as called for in the contract.

Federal Supply Schedule Orders. Army programming and contracting officials
did not require FAT of body armor components ordered through the FSS. Army
contracting officials stated that they believed the General Services Administration
(GSA) conducted FAT on items before awarding a contract on the FSS. GSA
contracting officials stated that they do not test items before awarding contracts
on the FSS and that FAT is the responsibility of the ordering activity.




                                     12
Contract Documentation
    FAR Subpart 4, “Government Contract Files,” prescribes how to establish,
    maintain, and dispose of contract files. Contract documentation in the files must
    provide a complete history of the acquisition and the award. If applicable,
    contracting office files normally include:

           •   a purchase request,

           •   acquisition planning information,

           •   the solicitation and amendments,

           •   a list of sources solicited,

           •   a copy of each offer or quotation,

           •   source-selection documentation,

           •   determination of the contractor’s responsibility (first article testing),

           •   original signed contract or award and modifications,

           •   contract completion documents, and

           •   any additional documents on which action was taken or that reflect
               actions by the contracting office pertinent to the contract.

    Army contract documentation was deficient on 11 of the contracts and orders
    reviewed. The deficient areas included inadequate or no:

           •   market research,

           •   acquisition plan,

           •   source-selection plan, and

           •   request for discounts on FSS orders.

    Market Research. FAR Subpart 2.1, “Definitions,” March 9, 2005, defines
    market research as collecting and analyzing information on commercial market
    capabilities to satisfy an agency’s needs. Market research can help ensure that the
    Government gets the best product for the best price. Officials can use a variety of
    market research techniques to identify potential sources, including reviewing
    recent market research for similar products; publishing formal requests for
    information; querying Government databases; querying Internet information
    sources; obtaining source lists; reviewing catalogs; and holding presolicitation
    conferences. The only documented evidence in 8 of the 28 contract files was a
    statement by program officials that market research had been performed; the
    research was not documented as required by the FAR. Although Army officials


                                          13
           complied with other statutory and regulatory provisions regarding competition,
           we believe market research was inadequate. See Appendix D for a list of the
           contract actions.

           Acquisition Plans.9 Contracting officials did not prepare a written acquisition
           plan for the purchase of DAPs before awarding FSS Order W91CRB-04-D-0014.
           Army officials stated that they did not create an acquisition plan for the order
           because they considered the acquisition to be a final buyout. This acquisition,
           however, was an FSS order. The Defense Federal Acquisition Regulation
           Supplement (DFARS) Subpart 207.1, “Acquisition Plans,” March 23, 2004,
           which waives an acquisition plan for final buyouts, does not apply to FAR
           Subpart 8.404(c)(1), which states, “Orders placed under a Federal Supply
           Schedule contract are not exempt from the development of acquisition plans.”
           Thus, an acquisition plan was required.

           Contracting officials did not prepare a written acquisition plan for the purchase of
           OTVs before awarding FSS Order W91CRB-04-F-0126. The officials stated that
           they did not create an acquisition plan because the FSS order value was lower
           than the threshold that would require an acquisition plan. In fact, this order
           requires an acquisition plan because the value for one fiscal year of this order was
           $24.7 million, well above the threshold of $15 million.

           Source-Selection Plan.10 The Request for Quote for FSS Order
           W91CRB-04-D-0014 contained inadequate evaluation factors. Ordering officials
           included the evaluation factors for award as an amendment to the solicitation.
           Those evaluation factors were technical performance, delivery time, and cost.
           The amendment instructed offerors to provide product samples for evaluation;
           however, the amendment did not provide criteria or a purchase description as a
           basis for the technical design. Despite the lack of design evaluation criteria,
           ordering officials wrote in the technical evaluations that competing designs
           deviated from the design prescribed in the solicitation and were therefore
           technically unacceptable.

           Requests for Discounts. The Army placed two orders from the FSS without
           requesting discounts even though the orders exceeded the maximum order
           threshold. For example, ordering officials did not request a discount for FSS
           Order W91CRB-04-D-0014 even though this order was for $239 million for
           840,000 DAPs. Although the order is listed as an indefinite-delivery, indefinite-
           quantity contract, contracting files identify it as an order from the FSS. The
           solicitation stated that discounts were encouraged; however, the vendor did not
           offer a discount in the quoted price, nor did Army officials actively request a
           discount or document why one was not requested. Similarly, Army officials did
           not request a discount for W91CRB-05-F-0072, an order for DAPs valued at


9
    An acquisition plan lists the specific actions necessary to execute the approved acquisition strategy and
    implement the contract. Its purpose is to ensure that the Government acquires items it needs in the most
    effective, economical, and timely manner possible.
10
     Source-selection plans are prepared to evaluate a bid or proposal. The source-selection plan contains
    evaluation factors and significant subfactors. These factors and significant subfactors help evaluators
    select the proposal that represents the best value.


                                                       14
    $3.09 million. Contracting officials pursued discounts only by stating in the
    solicitation, “Discounts off of GSA schedule prices are allowed and encouraged”;
    no discounts were offered by the manufacturer, and none were obtained.

    Determining a Reasonable Price. The contracting officer must make sure that
    items are bought at a fair and reasonable price. Contracting officials are
    prohibited from obtaining certified cost or pricing data when contracting for
    commercial items. Instead, contracting officials should rely on market-based
    pricing supported by evidence of commercial sales to determine fair and
    reasonable prices. The FAR also allows prior purchase history to be used when
    making theses comparisons.

    There was no evidence that the price was reasonable in Orders
    W91CRB-04-D-0014 and W91CRB-04-P-0169, valued at approximately
    $242 million. The Army paid $285.00 each for an initial order of 10,000 DAPs
    from W91CRB-04-P-0169. In subsequent Order W91CRB-04-D-0014, the Army
    procured 840,000 DAPs from the same manufacturer at the same price as the
    10,000, for a total value of $239 million.

    For Order W91CRB-04-P-0169, contracting officials indicated that the $285.00
    price was fair because the offeror could have charged a higher price. The officials
    maintained that contracting officials using simplified acquisition procedures were
    allowed to make that choice. Further, for Order W91CRB-04-D-0014, the
    contracting officer stated that the price was reasonable based on Order
    W91CRB-04-P-0169 and because the FSS already determined the price to be “fair
    and reasonable.” Contracting officials accepted the offer with the same price
    despite the substantial quantity ordered.

    We believe RDECOMAC contracting officials were not prudent in determining
    price and in using the Government’s funds. We believe a prudent contracting
    official should, as a rule, use validated historical prices as a basis to determine
    price reasonableness for current and future procurements. RDECOMAC officials
    did not ensure the validity of the comparison or the reasonableness of the
    historical price. Price comparisons were made when volumes were dissimilar.
    The disproportionate volume order of 840,000 as compared with 10,000 should
    have alerted the contracting officer to obtain a volume quantity discount after
    receiving the offer. Based on evidence presented in the contracting file, the
    contracting officer’s rationale for selecting this offer was not supportable.
    Further, no evidence exists to substantiate that the historical price used was
    reasonable.


Conclusion
    We cannot determine whether body armor components purchased under 13 Army
    contracts and orders met FAR requirements because FAT for body armor
    components could not be verified. Normally, a first article is tested to verify that
    the manufacturing process has generated an acceptable item and to catch and
    correct any defects in the manufacturing process before more items are produced
    using the same manufacturing process. First article testing would have assisted


                                         15
    Army officials in determining whether the contractor could furnish an acceptable
    product. Further, we cannot determine whether procurement decisions were
    informed by best-value criteria in 11 contracts reviewed. The Army should
    maintain contract files in compliance with the FAR and the DFARS. Well-
    maintained contract files support informed decisions and ensure DoD receives the
    best value in the body armor it procures. Because the period of performance for
    the contracts we reviewed has ended, recommendations made in this report are
    intended to prevent similar problems from recurring.


Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and audit responses are in
    Appendix G.


Recommendations, Management Comments, and Audit
  Response
    Redirected Recommendation. As a result of comments from the Commander,
    U.S. Army Research, Development and Engineering Command, we revised draft
    Recommendation 2. to show the correct command structure. Specifically,
    Recommendation 2. is redirected to the Commander, U.S. Army Research,
    Development and Engineering Command to direct the U.S. Army Research,
    Development and Engineering Command Acquisition Center to execute actions in
    2.a., 2.b., and 2.c.

    1. We recommend that the Program Executive Office Soldier:

           a. Direct testing and evaluation of the first article for conformance
    with contract requirements before the initial stage of production on all
    contracts for body armor components.
            b. Update the purchase description to identify the appropriate first
    article and the number of units to be furnished.

           c. Provide adequate documentation to support all contractual actions,
    including issuing waivers for first article testing.

    Program Executive Officer Soldier Comments. The Program Executive Office
    Soldier (hereafter the PEO) neither concurred nor nonconcurred. The PEO stated
    that for Recommendations 1.a., 1.b., and 1.c., no action would be required
    because all of the recommended actions are already regular and consistent current
    business practices in accordance with the FAR.

    Audit Response. The PEO’s comments on Recommendation 1.a. are not
    responsive. While we agree that procedures exist for testing and evaluation to
    ensure contract conformance, our audit results show that those procedures are not
    consistently followed. For example, the PEO states that his office requires two


                                       16
          levels of performance verification tests prior to acceptance (FAT and lot
          acceptance tests), while in the PEO’s comments on the draft report the PEO lists
          FAT verification conducted on December 3, 2004, for Contract
          W91CRB-05-D-0003 as the basis for a waiver of FAT on three additional
          contracts.11 Another example includes the purchase description for Contract
          W91CRB-06-D-0024, which is part of the contract and states, “current production
          items submitted with qualifying FAT data may be considered in the determination
          of reducing additional FAT verification by the Government.” This contract
          language indicates that the FAT may be reduced, not eliminated, and our review
          of the contract file indicated the FAT was never performed after contract award.
          These examples, and our additional audit response to the PEO’s comments in
          Appendix G, support the need for Recommendation 1.a., which if implemented
          would ensure contract FAT compliance if applicable to the contract. We request
          that the PEO reconsider his position on Recommendation 1.a. and provide
          comments on the final report in accordance with DoD Directive 7650.3.

          The PEO’s comments on Recommendation 1.b. are not responsive. The PEO
          stated that current business practices ensure that purchase descriptions identify
          the appropriate first article and the number of units to be furnished. However, we
          found purchase descriptions that did not contain this information. For example,
          as noted in the report, the ESBI purchase description states, “Unless otherwise
          specified in the contract or purchase order, the ESBI supplier is responsible for all
          first article and conformance inspections and tests herein.” This example, and our
          additional audit response to the PEO’s comments in Appendix G, supports the
          need for Recommendation 1.b., which if implemented would ensure that purchase
          descriptions are specific in identifying the appropriate first article and number of
          units to be furnished for FAT. We request that the PEO reconsider his position on
          Recommendation 1.b. and provide comments on the final report in accordance
          with DoD Directive 7650.3.

          The PEO’s comments on Recommendation 1.c. are not responsive. The PEO
          stated that current business practices ensure the documentation of all contractual
          actions, including issuing waivers for FAT, in accordance with the FAR.
          However, we found actions that were not documented. For example, the
          justification to support the waiver requested for Contract W91CRB-04-D0039
          consisted of a copy of a previous FAT authorization included in the offeror’s
          proposal. Neither the program office nor contracting office provided a document
          to state that a waiver was granted based on a previous test. Further, in Contract
          W91CRB-05-P-0204, awarded September 26, 2005, the offeror’s proposal
          contained a copy of official FAT authorization issued in February 16, 1999, and
          the offeror’s self-certification that the product passed FAT. Again, no official
          waiver was present in the contract file. However, in the source-selection
          evaluation form, the selecting official cites as an example of the offeror’s
          strengths that “ballistic packages have all passed FAT.” These examples, and our
          additional audit response to the PEO’s comments in Appendix G, support the
          need for Recommendation 1.c., which if implemented would ensure that adequate
          documentation is maintained to support all contractual actions. We request that
          the PEO reconsider his position on Recommendation 1.c. and provide comments
          on the final report in accordance with DoD Directive 7650.3.
11
     W91CRB-05-F-0072, W91CRB-04-D-0204, and W91CRB-06-D-0024.



                                               17
2. We recommend that the Commander, U.S. Army Research, Development
and Engineering Command direct the U.S. Army Research, Development
and Engineering Command Acquisition Center to:

       a. Require contracting officers to include specific instructions in
acquisition documents for first article testing when required, and maintain
documentation to support contractual actions in accordance with the Federal
Acquisition Regulation Part 4, “Administrative Matters.”

        b. Require contracting officers to require body armor manufacturers
and subcontractors to provide preproduction body armor components for
testing and evaluation before the Government authorizes production.

      c. Reevaluate the circumstances surrounding the price determination
for Orders W91CRB-04-D-0014 and W91CRB-04-P-0169 to determine
whether administrative remedies are necessary or available.

Commander, U.S. Army Research, Development and Engineering Command
Comments. The Commander, U.S. Army Research, Development and
Engineering Command (hereafter the Commander) concurred with
Recommendations 2.a., 2.b., and 2.c. The Commander stated that for
Recommendation 2.a., guidance would be issued to contracting officers no later
than February 29, 2008; for Recommendation 2.b., guidance would be issued to
contracting officers no later than February 29, 2008, for handling a requirement
for body armor manufacturers and subcontractors to provide preproduction
components for testing and evaluation before production; and for
Recommendation 2.c., reevaluation and determination would be accomplished by
February 29, 2008.

Audit Response. The Commander’s comments were fully responsive, and no
additional comments are required. Additionally, based on the Commander’s
suggestion, we redirected the recommendation to show the correct command
structure.

3. We recommend that the Assistant Secretary of the Army for Acquisition,
Logistics, and Technology/Army Acquisition Executive:

     a. Require contracting officers who conduct direct acquisition for
amounts greater than the simplified acquisition threshold to:

               (1) Determine whether the use of non-DoD contracts is in the
best interest of the Government, and verify that the required goods cannot
be obtained as conveniently or economically by using a DoD contract. The
contracting officer or another official designated by the agency head should
document those conclusions in writing.

            (2) Request discounts when placing orders from the Federal
Supply Schedule.




                                   18
              (3) Document their requests for discounts. If discounts were
received, document how the discounts were determined to be fair; if
discounts were not received, explain why the vendor was chosen.

             (4) Fully document decisions not to consider all potential
sources when awarding orders using the Federal Supply Schedule.

Office of the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) Comments. The Deputy Assistant Secretary of the Army (Policy
and Procurement), responding for the Assistant Secretary of Army (Acquisition,
Logistics, and Technology), concurred with Recommendation 3., stating that
policies and procedures are already fully in place. The Deputy Assistant
Secretary stated that guidance on acquiring supplies and services through
contracts or orders issued by non-DoD agencies is contained in the DFARS, the
U.S. Army Federal Acquisition Regulation Supplement, and other policy issued
by the DoD and the Army. Specific Army policy includes the ASA(ALT)
memorandum, “Proper Use of Non-Department of Defense (Non-DoD)
Contracts,” July 12, 2005. This memorandum requires a written certification for
using non-DoD contract vehicles on or after January 1, 2005, for acquisitions
above the simplified acquisition threshold.

Further, the Deputy Assistant Secretary stated that guidance on requesting
discounts is contained in FAR 8.404, and an Office of the Under Secretary of
Defense (Acquisition, Technology, and Logistics) memorandum, “Use of Federal
Supply Schedules and Market Research,” January 28, 2005. This guidance
reminds contracting officers to seek discounts for orders exceeding the maximum
order threshold. The guidance also requires contracting officers to explain in the
contract file how the discount was determined to be fair and reasonable or the
reason for not obtaining a discount. Finally, the memorandum discusses the
importance of conducting market research for acquisitions above the simplified
acquisition threshold and advises contracting officers that they “should document
the contract file on the market research efforts conducted in support of each
acquisition.”

Audit Response. The Deputy Assistant Secretary’s comments are partially
responsive. Although the Deputy Assistant Secretary concurred with the
recommendation and we agree that policies and procedures are in place to ensure
supplies and services acquired through contracts or orders issued by non-DoD
agencies are adequate, the Deputy Assistant Secretary did not identify steps that
will be initiated to ensure that these policies and procedures are enforced.

During our review, we observed the application of the Army’s policy for
reviewing and approving the use of non-DoD contracts. For Order
W91CRB-05-F-0072, issued June 2, 2005, the application of Army policy was
not evident. However, for Order W91CRB-06-F-0098, issued January 19, 2006,
the policy was properly applied. Although this example shows that Army
officials may be making progress on uniform implementation of Army policy, we
request that the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) reconsider his position on Recommendation 3. and provide
comments on the final report in accordance with DoD Directive 7650.3 indicating
what actions will be taken to ensure the policies and procedures are enforced.


                                    19
Appendix A. Scope and Methodology
            We conducted this performance audit from November 2006 through March 2008
            in accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the audit to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and
            conclusions based on our audit objectives. We believe that the evidence obtained
            provides a reasonable basis for our findings and conclusions based on our audit
            objectives.

            We evaluated whether contracting officials with the Army’s RDECOMAC and
            the Marine Corps’ MCSC awarded contracts for IBA according to the FAR and
            the DFARS. We reviewed the procurement of body armor between January 2004
            and December 2006. Specifically, we evaluated documentation of contracts for
            body army components from presolicitation to solicitation and evaluation.

            We collected, analyzed, and reviewed documents dated December 1997 through
            April 2007. We collected the acquisition documents of 40 contracts and orders
            for body armor components. We analyzed contracting files, which contained
            acquisition plans, requests for proposals, proposal evaluation plans, price
            negotiation memorandums, notifications to unsuccessful bidders, sole-source
            award justifications, award letters, contracts and modifications, and protests
            against award.

            We interviewed contracting officials at the Army’s RDECOMAC and Marine
            Corps’ MCSC. We interviewed program office personnel from the Army’s PEO
            Soldier and PM SEQ, and from the Marine Corps’ PM ICE. We also interviewed
            officials at the Service headquarters. We coordinated with Government
            Accountability Office personnel who were conducting a concurrent review of
            body armor issues.

            We reviewed contracting regulations in the FAR, the DFARS, Public Laws, and
            the United States Code. We also reviewed Service regulations, instructions,
            handbooks, and field manuals.

            The audit scope was limited to Army and Marine Corps contracts and orders
            awarded between January 2004 and December 2006 for body armor components.
            We divided the acquisition process into three phases: presolicitation, solicitation
            and evaluation, and contract administration. The scope was limited to reviewing
            the presolicitation and the solicitation and evaluation phases of the acquisition
            process for specific contracts. We also reviewed contracting files as necessary to
            determine requirements for FAT. We did not evaluate the contract administration
            phase of the acquisition process, which includes activities performed after
            contract award, such as quality control and testing,12 deliverable requirements,
            and monitoring and measuring performance and end-user satisfaction, to
12
      Quality control and testing (acceptance testing) involves testing each item or manufacturing lot of items
     to verify that each particular item meets its specification requirements. The purpose of acceptance testing
     is to catch random defects on a particular item that are not systemic in the manufacturing process; due to
     our scope limitation, we did not examine acceptance testing.



                                                        20
       determine whether the contractor met the requirements of the contract. We also
       did not visit contractor facilities during the audit. See Appendix F for a summary
       of the contracts reviewed.

       Use of Computer-Processed Data. We did not rely on computer-processed data
       to perform this audit.

       Use of Technical Assistance. We did not require technical assistance to perform
       this audit.

       Government Accountability Office High-Risk Area. The Government
       Accountability Office has identified several high-risk areas in DoD. This report
       provides coverage of the DoD Contract Management high-risk area.

Prior Coverage
       During the last 5 years, the Government Accountability Office (GAO), the
       DoD IG, and the Department of the Army have issued six reports discussing body
       armor. Unrestricted GAO reports can be accessed on the Internet at
       http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
       http://www.dodig.mil/audit/reports. Dissemination of Army reports is prohibited
       except as authorized by Army Regulation 20-1.

GAO
       GAO-07-662R, “Defense Logistics: Army and Marine Corps’s Individual Body
       Armor System Issues,” April 26, 2007
       GAO-06-943, “DoD Excess Property: Control Breakdowns Present Significant
       Security Risk and Continuing Waste and Inefficiency,” July 25, 2006
       GAO-05-275, “Defense Logistics: Actions Needed to Improve the Availability of
       Critical Items during Current and Future Operations,” April 8, 2005

DoD IG
       DoD IG Report No. D-2007-107, “Procurement Policy for Armored Vehicles,”
       June 27, 2007

Army
       Department of the Army, Inspector General, “Special Inspection of the Processes
       Used to Provide Body Armor to U.S. and Coalition Forces in Operation Iraqi
       Freedom and Enduring Freedom, December 2003–February 2004,” April 20,
       2004
       Army Audit Agency, Audit Report A-2004-0202-AMA, “Interceptor Body
       Armor,” March 17, 2004



                                           21
Appendix B. Congressional Request




                     23
24
Appendix C. Effect of Body Armor Ban

Request
    Determine the effect of the Army’s ban on personally procured body armor
    on the safety of our Service members.

    To respond to this request, we reviewed the Army’s ban on personally procured
    body armor, and determined whether the Army had enough body armor in
    inventory to protect its soldiers.


Policies Banning Commercially Available Body Armor
    The Army issued a Safety of Use Message (SOUM) on March 17, 2006, banning
    the use of personally procured, commercially available body armor products in a
    combat zone. Titled “Discontinued Use of Unauthorized Body Armor, Dragon
    Skin,” the SOUM states:

           There may be Soldiers deployed in OIF/OEF who are wearing commercial body armor
           called “Dragon Skin,” made by Pinnacle Armor, in lieu of their issued Interceptor Body
           Armor (IBA). Media releases and related advertising imply that Dragon Skin is superior
           in performance to IBA. The Army has been unable to determine the veracity of these
           claims.

    The message continues:

           The Army has been involved in the development of the Dragon Skin and the different
           technology it employs. Dragon Skin’s capabilities do not meet Army requirements. In
           fact, the Dragon Skin has not been certified by the Army for protection against small
           arms threats being encountered in Iraq and Afghanistan today. . . . Although this
           message specifically identifies Dragon Skin, it applies to other commercially available
           body armor products (such as commercial police vests) that are not Army approved and
           issued.

    According to Army officials, the SOUM was issued to address concerns raised by
    the Army Chief of Staff that deployed soldiers may be using nonstandard body
    armor. The Army found that units had bought nonstandard body armor, and the
    SOUM directed units to turn in nonstandard body armor. Commanders were
    required to replace all other types of body armor immediately with IBA. The
    Marine Corps issued policy on the wear and purchase of body armor and personal
    protective equipment on April 17, 2007. The Army and Marine Corps issued the
    policies to enhance the safety of military personnel by ensuring that their body
    armor meets established military ballistic standards.

    The SOUM made soldiers aware that commercially available body armor did not
    meet military specifications for ballistic protection. The Services require that
    ballistic testing be performed by an independent certified National Institute of

                                             25
    Justice testing facility. The testing facilities confirmed that IBA reduces the
    effects of fragmentation and ballistic projectiles. As a result, troops are equipped
    with modular body armor certified as meeting Government test standards.


Inventory of Body Armor
    According to Army officials, an adequate supply of body armor was available and
    issued at the time of the ban. An October 2003 CENTCOM message states that
    each Service member and DoD civilian in the CENTCOM theater was to be
    issued one suit of body armor. We evaluated the Army’s inventory against the
    CENTCOM requirement to determine whether the Army had sufficient stocks of
    IBA on hand at the time of the ban. The table provides information on theater
    requirements and quantities fielded by the Army.

                                Outer Tactical Vests Fielded
                                                                           SAPIs (sets)
                        CENTCOM Theater           OTVs Fielded by            Fielded
     Date                 Requirement               the Army               by the Army
     December 2005              231,738                885,787               729,171
     March 2006                 198,130                909,623               825,424
     June 2006                  193,046                953,079               896,069


    Sufficient stocks of IBA were available for Service members at the time of the
    Army ban. Although there may have been isolated instances of IBA not being
    readily available, reported quantities on hand were sufficient to issue one suit of
    body armor to each Service member and DoD civilian in the CENTCOM theater.
    The figure on the next page provides a timeline showing when standards were
    issued and when body armor components were required and fielded by the Army.
    The timeline illustrates the period June 1999 to June 2006.




                                          26
                                                                              OCT 2003
                                                                              CENTCOM
                                                                                Publishes
                                                                        Standard for Body Armor:
                                                                        One OTV per U.S. Service                                 2005
                                                                         Member/DoD Personnel                                 MAR 2006
                                   DEC 2001                                    In Theater                                     CENTCOM
                              Operation Enduring                                                                            OTV Requirement
                                                      MAR 2003                                                                  198,130
                               Freedom Initiated     Operation Iraqi
                                                    Freedom Initiated                                          2005                              2005
                                                                                                            DEC 2005                          JUN 2006
                                                                                                            CENTCOM                           CENTCOM
                                                                                                          OTV Requirement                   OTV Requirement
                                                                                                              231,738                           193,046




27
            JUN 1999
        Army Started Fielding                                                                                  Army                              Army
       Interceptor Body Armor                                                                                 Fielded                           Fielded
               System                                                               DEC 2003               885,787 OTV,                      953,079 OTV,
                                                                                        Army               729,171 SAPI                      896,069 SAPI
                                                                           Procurement Objective Change
                                                                               One OTV & Two SAPI                                Army
                                                                                  per Army Soldier                              Fielded
                                                                                                                             909,623 OTV,
                                                                                                                             825,424 SAPI

                                                                                                                                  Army
                                                                                                                                 Issued
                                                                                                                        Safety of Use Message
     CENTCOM       U.S. Central Command
     ESBI          Enhanced Side Ballistic Insert                                                     “Discontinue Use of Unauthorized Body Armor, Dragon Skin”
     OTV           Outer Tactical Vest
     SAPI          Small Arms Protective Insert
Appendix D. Guidance for Contracting Officers
   The FAR and DFARS provide guidance to contracting officers and Government
   contractors. Specifically, the FAR and DFARS define duties and responsibilities
   for all personnel involved in the pre-award and award of Federal contracts. The
   following sections of the FAR and DFARS pertain to the administration of the
   contracts and orders we reviewed.

   FAR Part 2, “Definitions of Words and Terms.” FAR Part 2.000(a)(1) Defines
   words and terms that are frequently used in the FAR; (2) Provides cross-
   references to other definitions in the FAR of the same word or term; and (3)
   Provides for the incorporation of these definitions in solicitations and contracts by
   reference.

   FAR Part 4, “Administrative Matters.” FAR Part 4 prescribes policies and
   procedures relating to the administrative aspects of contract execution, contractor-
   submitted paper documents, distribution, reporting, retention, and files.

   FAR Part 7, “Acquisition Planning.” FAR Part 7 prescribes policies and
   procedures for (a) Developing acquisition plans; (b) Determining whether to use
   commercial or Government resources for acquisition of supplies or services;
   (c) Deciding whether it is more economical to lease equipment rather than
   purchase it; and (d) Determining whether functions are inherently governmental.

   FAR Part 8, “Required Sources of Supplies and Services.” FAR Part 8 deals
   with the acquisition of supplies and services from or through Government supply
   sources.

   FAR Part 9, “Contractor Qualifications.” FAR Part 9 prescribes policies,
   standards, and procedures pertaining to prospective contractors’ responsibility;
   debarment, suspension, and ineligibility; qualified products; first article testing
   and approval; contractor team arrangements; defense production pools and
   research and development pools; and organizational conflicts of interest.

   FAR Part 12, “Acquisition of Commercial Items.” FAR Part 12 prescribes
   policies and procedures unique to the acquisition of commercial items. It
   implements the Federal Government’s preference for the acquisition of
   commercial items contained in Title VIII of the Federal Acquisition Streamlining
   Act of 1994 (Public Law 103-355) by establishing acquisition policies more
   closely resembling those of the commercial marketplace and encouraging the
   acquisition of commercial items and components.

   FAR Part 13, “Simplified Acquisition Procedures.” FAR Part 13 prescribes
   policies and procedures for the acquisition of supplies and services, including
   construction, research and development, and commercial items, the aggregate
   amount of which does not exceed the simplified acquisition threshold.
   Subpart 13.5 provides special authority for acquisitions of commercial items
   exceeding the simplified acquisition threshold but not exceeding $5.5 million
   ($11 million for acquisitions as described in 13.500(e)), including options.



                                         28
           FAR Part 15, “Contacting by Negotiation.” FAR Part 15 prescribes policies
           and procedures governing competitive and noncompetitive negotiated
           acquisitions.

           FAR Part 16, “Types of Contracts.” FAR Part 16 describes types of contracts
           that may be used in acquisitions. It prescribes policies and procedures and
           provides guidance for selecting a contract type appropriate to the circumstances
           of the acquisition.

           FAR Part 52, “Solicitation Provisions and Contract Clauses.” FAR
           Part 52.000 (a) Gives instructions for using provisions and clauses in solicitations
           and/or contracts; (b) Sets forth the solicitation provisions and contract clauses
           prescribed by the FAR; and (c) Presents a matrix listing the FAR provisions and
           clauses applicable to each principal contract type or purpose (for example, fixed-
           price supply, cost-reimbursement research and development).

           DFARS Subpart 207.103, “Agency-head responsibilities,” March 31, 2003.13
           DFARS Subpart 207.103 instructs the agency head to prepare written acquisition
           plans for acquisitions for production or services when the total cost of all
           contracts for the acquisition program is estimated at $30 million or more for all
           years or $15 million or more for any fiscal year. Written plans are not required in
           acquisitions for a final buy out or one-time buy. The terms “final buy out” and
           “one-time buy” refer to a single contract that covers all known present and future
           requirements. This exception does not apply to a multiyear contract or a contract
           with options or phases.




13
     DFARS Subpart 207.103, March 31, 2003, was in effect at the time the Army awarded contract
     W91CRB-04-D-0014. The revision issued March 27, 2007, raised the dollar thresholds.



                                                    29
Appendix E. Interceptor Body Armor
   Currently, soldiers and Marines use IBA, the model name for multiple-threat body
   armor. Body armor is designed to offer increased protection to the soldier by
   stopping or slowing bullets and fragments and reducing the number and severity
   of wounds.

   The modular pieces of IBA consist of the Outer Tactical Vest (OTV); Small Arms
   Protective Inserts/Enhanced Small Arms Protective Inserts (SAPIs)/(ESAPIs);
   Deltoid and Axillary Protectors (DAPs); and the Enhanced Side Ballistic Inserts
   (ESBIs), labeled “Side Plates” in the diagram. The body armor, which is unisex,
   is equipped with removable throat and groin protectors, as well as with front and
   back removable plates, which can defeat rifle-fired threats. See the diagram for
   the various components of IBA.

                        Interceptor Body Armor Diagram

     ESAPI Ballistic                                      Deltoid Axillary Protector
      Inserts (set)                                                 (DAP)




       Outer Tactical
        Vest (OTV)                                                 Side Plates




                                                           Source: PEO Soldier




                                      30
                                                                                                               Deficiencies Identified

                                                                                                                                   Source -
     Contract /Order                                                                                Market          Acquisition    Selection   Discounts
     Number                           Contractor                Product               FAT           Research           Plan          Plan      Requested

           Army Contracts
                                      Point Blank Body
     W91CRB-04-D-0014                 Armor Inc.                DAPs                   X                                X*           X*          X*


     W91CRB-04-D-0039                 Ceradyne Inc.             SAPIs                                   X

                                      Armor Works,
     W91CRB-04-D-0040                 LLC.                      SAPIs                  X                X


     W91CRB-04-D-0041                 ForceOne, LLC.            SAPIs                                   X




31
     W91CRB-04-D-0042                 Simula, Inc.              SAPIs                  X                X


     W91CRB-04-D-0043                 Cercom, Inc.              SAPIs                  X                X


     W91CRB-04-D-0044                 Composix Co               SAPIs                  X                X

                                      Armacel Armor
     W91CRB-04-D-0045                 Corp.                     SAPIs                  X                X

                                      Point Blank Body
     W91CRB-04-F-0126                 Armor Inc.                OTVs                   X                                X
                                                                                                                                                                        Armor Contracts Reviewed
                                                                                                                                                           Appendix F. Summary of Interceptor Body




     X Inadequate documentation was in the contract file to support decisions made by contracting officials.
     * No documentation was included in the contract file.
     Δ Product procured was either OTV conversion kits or OTV conversion services (CNV).
                                                                                                               Deficiencies Identified

                                                                                                                                    Source
     Contract /Order                                                                                Market          Acquisition    Selection   Discounts
     Number                           Contractor                Product               FAT           Research           Plan          Plan      Requested

                                      Point Blank Body
     W91CRB-04-P-0169                 Armor Inc.                DAPs

                                      Point Blank Body
     W91CRB-05-D-0003                 Armor Inc.                OTV                    X

                                      Point Blank Body
     W91CRB-05-F-0072                 Armor Inc.                DAPs                   X                                                         X*

                                      Protective
     W91CRB-05-F-0086                 Material Group            SAPIs




32
     W91CRB-05-P-0147                 Simula Inc.               SAPIs


     W91CRB-05-P-0148                 Cercom, Inc.              SAPIs

                                      Armacel Armor
     W91CRB-05-P-0159                 Corp                      SAPIs

                                      Patriot
     W91CRB-05-P-0191                 Performance               SAPIs

                                      Point Blank Body          OTV
     W91CRB-05-P-0204                 Armor Inc.                CNV Δ                  X

                                      Point Blank Body          OTV
     W91CRB-05-P-0215                 Armor Inc.                CNV Δ

     X Inadequate documentation was in the contract file to support decisions made by contracting officials.
     * No documentation was included in the contract file.
     Δ Product procured was either OTV conversion kits or OTV conversion services (CNV).
                                                                                                               Deficiencies Identified

                                                                                                                                    Source
     Contract /Order                                                                                Market          Acquisition    Selection   Discounts
     Number                           Contractor                Product               FAT           Research           Plan          Plan      Requested


     W91CRB-06-C-0002                 Ceradyne Inc.             SAPIs                  X

                                      Protective
     W91CRB-06-D-0004                 Material Group            SAPIs

                                      Point Blank Body          OTV
     W91CRB-06-D-0024                 Armor Inc.                CNV Δ                  X

                                      UNICOR Federal            OTV
     W91CRB-06-D-0027                 Prison                    CNV Δ

                                                                ESBIs &




33
     W91CRB-06-D-0028                 Ceradyne Inc.             Carriers

                                      Armor Works               ESBIs &
     W91CRB-06-D-0029                 LLC.                      Carriers               X

                                      Point Blank Body          OTV
     W91CRB-06-D-0030                 Armor Inc.                CNV Δ

                                                                OTV
     W91CRB-06-D-0031                 Specialty Defense         CNV Δ

                                      Point Blank Body          ESBIs &
     W91CRB-06-F-0098                 Armor Inc.                Carriers                                X


      Army Subtotal                                                                    13               8                2               1        2

     X Inadequate documentation was in the contract file to support decisions made by contracting officials.
     * No documentation was included in the contract file.
     Δ Product procured was either OTV conversion kits or OTV conversion services (CNV).
                                                                                                               Deficiencies Identified
                                                                                                                                    Source
     Contract /Order                                                                                Market          Acquisition    Selection   Discounts
     Number                           Contractor                Product               FAT           Research           Plan          Plan      Requested


          Marine Corps Contracts

                                      Armor Works
     M67854-04-D-3005                 LLC.                      SAPIs


     M67854-04-D-3116                 Ceradyne Inc.             SAPIs


     M67854-04-D-3117                 Simula Inc.               SAPIs

                                      Armor Works




34
     M67854-04-D-3118                 LLC.                      SAPIs


     M67854-05-C-3062                 Ceradyne Inc.             ESBIs

                                      Source One                ESBIs &
     M67854-05-C-3063                 Distributors              Carriers

                                      Diamondback
     M67854-05-C-3065                 Tactical                  ESBIs


     M67854-06-C-3019                 Ceradyne Inc.             ESBIs

                                      Source One                ESBIs &
     M67854-06-C-3020                 Distributors              Carrier

     X Inadequate documentation was in the contract file to support decisions made by contracting officials.
     * No documentation was included in the contract file.
     Δ Product procured was either OTV conversion kits or OTV conversion services (CNV).
                                                                                        Deficiencies Identified

                                                                                                                Source
     Contract /Order                                                             Market      Acquisition       Selection   Discounts
     Number                     Contractor          Product           FAT        Research       Plan             Plan      Requested

                                                    ESBIs &
     M67854-06-D-3031           Simula Inc.         Carriers

                                Armor Works,        ESBIs &
     M67854-06-D-3071           LLC.                Carriers

                                Armor Works,        ESBIs &
     M67854-06-D-3072           LLC.                Carriers


      Marine Corps Subtotal                                            0            0             0               0           0




35
     Service Total                                                    13            8             2               1           2



     X Inadequate documentation was in the contract file to support decisions made by contracting officials.

     * No documentation was included in the contract file.

      Δ Product procured is either OTV conversion kits and/or OTV conversion services (CNV).
Appendix G. Management Comments on the
            Draft Report and Audit Response
            Management comments on the draft report and finding from the Program
            Executive Office (PEO) Soldier and U.S. Army Research, Development and
            Engineering Command, and our detailed response to the comments, follows. The
            complete text of these comments is in the Management Comments section of the
            report.


The Program Executive Office Soldier Comments on the Draft
  Report and Audit Response
            The PEO Soldier (hereafter the PEO), also the Commanding General, Natick
            Soldier Systems Center, provided management comments on the draft report.

            PEO Comments. The PEO stated that the Army requires and conducts FAT and
            lot acceptance tests, which verify performance parameters of ballistic limit and
            resistance to penetration. These tests also verify that body armor meets Army
            standards before it is issued to soldiers and ensure that the production processes
            remain in check. The PEO also stated that the Army conducts post-issue
            surveillance testing to ensure no degradation of body armor performance over
            time. The PEO acknowledged that lot acceptance tests and surveillance testing
            were not in the scope of this audit, but stated that they are a critical part of the
            body armor testing program. In an additional meeting with Army officials, the
            PEO stated that the Army has no evidence of deaths that can be attributed to
            defective body armor.

            The PEO nonconcurred with the report’s finding that the Army did not conduct
            FAT after contract award on 15 of 28 contracts reviewed14. He stated that the
            FAR does not mandate a specific time to conduct FAT to ensure body armor
            meets standards. The PEO also stated that the FAR defines “first article” as an
            initial production sample, and FAT as a testing and evaluation process to
            determine whether a proposed product conforms to contract requirements before
            the initial stage of production. He further stated that the Army complied with the
            FAR by conducting FAT on initial production samples and verified contract
            specifications of every delivered lot prior to Army acceptance through lot
            acceptance tests.

            Further, with regard to conducting FAT on every new body armor design, the
            PEO stated that if a body armor item had a previous FAT qualification, the
            contracting officer would provide a waiver by issuing a letter verifying a previous

14
      We identified deficiencies in 15 of 28 contracts and orders that did not include requirements for or
     perform FAT on body armor components in our draft report. Based on comments and evidence received
     after our review, we updated the report to remove one contract and one order from our list, Contract
     W91CRB-04-D-0039 and Order W91CRB-05-F-0086.



                                                     36
FAT qualification, as authorized by the FAR. Specifically, the FAR states that
the Government may waive the requirement for first article approval test where
supplies identical or similar to those called for in the schedule have been
previously furnished by the offeror/contractor and have been accepted by the
Government. The PEO stated that all Army contracts to procure body armor have
been in strict compliance with the FAR, which grants authority to the contracting
officer to grant a waiver for FAT. The PEO stated that, although disputed by the
DoD IG, FAT was conducted or waived by the contracting officer for each of the
following 15 contracts:

1. W91CRB-06-C-0002 (ESBI) – verification of FAT was certified by the
   contracting officer in a letter dated February 1, 2006.

2. W91CRB-04-D-0039 (SAPI) – verification of previous FAT was certified by
   the contracting officer in a letter dated March 11, 2003 (supplies and
   manufacturing processes are identical).

3. W91CRB-04-D-0040 (SAPI) – verification of previous FAT was certified by
   the contracting officer in a letter dated February 24, 2003 (supplies and
   manufacturing processes are identical).

4. W91CRB-04-D-0042 (SAPI/ESAPI) – verification of previous FAT (SAPI)
   was certified by the contracting officer in a letter dated December 29, 2003
   (supplies and manufacturing processes are identical). The PEO also stated
   that subsequent verification of FAT on ESAPI was certified by the contracting
   officer in a letter dated February 24, 2005.

5. W91CRB-04-D-0043 (SAPI) – no FAT letter was issued by the contracting
   officer; FAT was verified by test data from H.P. White Laboratory,
   Incorporated, an independent National Institute of Justice-certified ballistic
   laboratory, from July 13 to 17, 2004 (supplies and manufacturing processes
   are identical).

6. W91CRB-04-D-0044 (SAPI) – FAT was verified by test data from H.P.
   White Laboratory, Incorporated from July 13 to 16, 2004. The PEO also
   stated that the contracting officer waived FAT after the fact in a letter dated
   December 20, 2004.

7. W91CRB-04-D-0045 (SAPI/ESAPI) – verification of FAT was certified by
   the contracting officer in a letter dated September 6, 2005.

8. W91CRB-04-F-0126 (OTV) – no FAT letter was issued by the contracting
   officer; FAT was verified by test data from H.P. White Laboratory,
   Incorporated on March 13, 2003 (supplies and manufacturing processes are
   identical).

9. W91CRB-05-D-0003 (OTV) – FAT was conducted on December 3, 2004, at
   H.P. White Laboratory, Incorporated and was certified after the fact by the
   contracting officer in a letter dated June 16, 2006 (supplies and manufacturing
   processes are identical).



                                     37
        10. W91CRB-05-F-0072 (DAPs)15 – FAT was conducted on December 3, 2004,
            at H.P. White Laboratory, Incorporated and was certified after the fact by the
            contracting officer in a letter dated June 16, 2006 (supplies and manufacturing
            processes are similar).

        11. W91CRB-05-F-0086 (ESAPI) – verification of FAT was certified by the
            contracting officer in a letter dated September 7, 2005.

        12. W91CRB-04-D-0204 (OTV Retrofit) – FAT was conducted on December 3,
            2004, at H.P. White Laboratory, Incorporated and was certified after the fact
            by the contracting officer in a letter dated June 16, 2006 (supplies and
            manufacturing processes are similar).

        13. W91CRB-04-D-0014 (DAPs) – no FAT letter was issued by the contracting
            officer, and FAT was verified by test data from H.P. White Laboratory,
            Incorporated on March 13, 2003 (supplies and manufacturing processes are
            similar).

        14. W91CRB-06-D-0024 (OTV Retrofit) – previous FAT was conducted on
            December 3, 2004, at H.P. White Laboratory, Incorporated and was certified
            after the fact by the contracting officer in a letter dated June 16, 2006
            (supplies and manufacturing processes are similar).

        15. W91CRB-06-D-0029 (ESBI and Carrier) – verification of FAT was certified
            by the contracting officer in a letter dated August 16, 2006.

        Audit Response. FAR Subpart 4.8, “Government Contract Files,” states that
        contract files shall be sufficient to constitute a complete history of the transaction,
        furnishing essential facts in the event of litigation or congressional inquiries. We
        evaluated contract files for FAR compliance with regard to FAT, to include
        approvals or disapprovals of waivers or deviation from contract requirements.
        There was no evidence of this kind in contracting files for 15 of 28 contracts and
        orders during our review.

        In his management comments, the PEO stated that the Army complied with the
        FAR by conducting FAT on initial production samples, and also stated that if a
        body armor item had a previous FAT qualification, the contracting officer would
        provide a waiver by issuing a letter verifying a previous FAT qualification. The
        PEO provided an explanation of the FAT conducted or waivers granted for the
        15 contracts and orders in question (as seen in 1 through 15 above); below is our
        response to the PEO’s explanation.

        1. W91CRB-06-C-0002 (ESBI) – The PEO stated that a FAT was verified and
           certified by the contracting officer in a letter dated February 1, 2006.
           However, this contract did not contain the FAR clause requiring FAT to be
           conducted. Additionally, this letter was not maintained in the contracting file.

15
   Although the PEO indicated that this order was for OTV Conversion Kits, it was originally awarded on
June 3, 2005, for deltoid protector outershell, universal camouflage pattern. So, we grouped this order
with DAPs. The order was subsequently modified on June 10, 2005, to cancel the original line and add a
new line ordering OTV Conversion Kits.



                                                   38
   Further, documentation obtained from the PEO states that FAT and lot
   acceptance tests were both conducted on January 31, 2006. According to a
   test facility official, lot acceptance tests of production Lot 0001 were
   conducted on January 31, 2006, even though the contracting officer did not
   authorize production as a result of the FAT until February 1, 2006. Because
   the FAR defines FAT as a testing and evaluating process to determine
   whether the proposed product conforms to contract requirements before or in
   the initial stage of production, it is clear that the contracting officer did not
   conform to the FAR requirements for contract W91CRB-06-C-0002.

2. W91CRB-04-D-0039 (SAPI) – The PEO stated that verification of previous
   FAT was certified by the contracting officer in a letter dated March 11, 2003.
   This contract was awarded from a May 2004 solicitation. In this solicitation,
   we believe that the Army intended to obtain first article approval by
   requesting prospective offerors to submit PDM samples along with their bids
   for evaluation. However, after the contract was awarded, the contracting
   officer did not follow FAR Subpart 9.308 requiring the contracting officer to
   insert one of two clauses. Specifically, the FAR states that the contracting
   officer should use the clause specified in FAR 52.209-3, “First Article
   Approval—Contractor Testing” when it is intended that the contract require
   first article approval conducted by the contractor; or the clause specified in
   FAR 52.209-4, “First Article Approval—Government Testing” when it is
   intended that the contract require first article approval conducted by the
   Government. Although FAT was not a requirement in the contract, the PEO
   stated that verification of a previous FAT was certified in a letter dated
   March 11, 2003; however, this letter and documentation to support the FAT
   results were not included in the contracting file; the letter was provided by the
   PEO after we completed our review. As stated in our draft report, we
   evaluated contract files for approvals or disapprovals of requests for waivers
   or deviation from contract requirements. Although the contracting officer has
   the option to request a waiver, there was no evidence in the contract file of
   any formal waiver procedure. However, we updated the report to remove this
   contract from the list of contracts that did not complete FAT.

3. W91CRB-04-D-0040 (SAPI) – The PEO stated that verification of previous
   FAT was certified by the contracting officer in a letter dated February 24,
   2003. The verified FAT letter states that the product was evaluated against
   specifications defined in the purchase description (CO/PD 00-03A).
   However, the solicitation, issued on May 19, 2004, stated that CO/PD 00-03D
   included the specifications against which the offeror’s product should be
   evaluated. Based on FAR Subpart 9.303, the contractor should have furnished
   a product for FAT because there were subsequent changes in the
   specifications.

4. W91CRB-04-D-0042 (SAPI/ESAPI) – The PEO stated that verification of
   previous FAT (SAPI) was certified by the contracting officer in a letter dated
   December 29, 2003. This contract was awarded with two contract line
   numbers: line 0001 for the SAPI and line 0002 for overweight SAPI. The
   PEO provided verification of a previous FAT for the SAPI, and that




                                     39
   verification was in the contract file. However, there was no verification of
   FAT conducted on the overweight SAPI, and no evidence of a waiver for FAT
   on the overweight SAPI in the contract file.

5. W91CRB-04-D-0043 (SAPI) – The PEO stated that no FAT letter was issued
   by the contracting officer, and that FAT was verified by test data from H.P.
   White Laboratory, Incorporated from July 13 to 17, 2004. However, this
   occurred prior to contract award on August 19, 2004. Additionally, for this
   contract, the contracting officer used the PDMs submitted under the
   solicitation to authorize production. However, FAR Subpart 14.202-4 states
   that PDMs will be used to determine only the responsiveness of the bid and
   will not be used to determine a bidder’s ability to produce the required items.
   For this contract, the bid sample was evaluated as part of source selection, and
   the first article was not tested. There is no evidence in the contracting file of
   FAT for this design after contract award.

6. W91CRB-04-D-0044 (SAPI) – The PEO stated that FAT was verified by test
   data from H.P. White Laboratory, Incorporated from July 13 to 16, 2004.
   However, this occurred prior to contract award on August 19, 2004.
   Additionally, for this contract, the contracting officer used the PDMs
   submitted under the solicitation to authorize production. However, FAR
   Subpart 14.202-4 states that PDMs will be used to determine only the
   responsiveness of the bid and will not be used to determine a bidder’s ability
   to produce the required items. For this contract, the bid sample was evaluated
   as part of source selection, and the first article was not tested. The PEO also
   stated that the contracting officer waived FAT after the fact in a letter dated
   December 20, 2004. During our review, there was no evidence of this waiver
   in the contracting file.

7. W91CRB-04-D-0045 (SAPI/ESAPI) – The PEO stated that verification of
   FAT was certified by the contracting officer in a letter dated September 6,
   2005. This contract was originally awarded on August 19, 2004, with
   contract line number 0002 for overweight SAPI. Our review of the
   contracting file showed that FAT on the overweight SAPI was based on PDM
   testing conducted prior to the contract award. Contract line number 0002 was
   subsequently cancelled on February 23, 2005, and contract line number 0003
   for ESAPI was added on August 15, 2005. The FAT letter that the PEO
   mentioned referred to the FAT conducted on the ESAPI. There was no
   verification of FAT conducted on the overweight SAPI in the contract file and
   no evidence of a waiver for FAT.

8. W91CRB-04-F-0126 (OTV) – The PEO stated that no FAT letter was issued
   by the contracting officer, and that FAT was verified by test data from
   H.P. White Laboratory, Incorporated on March 13, 2003. However, the
   contracting file and additional documentation collected from RDECOMAC
   did not provide evidence of FAT. RDECOMAC contracting officials stated
   that testing and evaluation was performed by GSA because this order was
   placed against GSA Contract GS-07F-8942D. To validate the contracting
   officials’ statement, we contacted a GSA official who said it is the
   responsibility of the customer to verify that a product meets specifications.



                                     40
                 Based on this information and the lack of documentation in the contracting
                 file, we cannot validate the PEO’s statement that FAT was verified on
                 March 13, 2003.

            9. W91CRB-05-D-0003 (OTV) – The PEO stated that FAT was conducted on
               December 3, 2004, at H.P. White Laboratory, Incorporated and was certified
               after the fact by the contracting officer in a letter dated June 16, 2006. We
               agree that a test was conducted on a PDM sample on December 3, 2004, as
               part of the source-selection process. However, the purchase description,
               which is part of the contract, requires a complete item to be tested as a first
               article. Specifically, the purchase description states that after FAT an
               alternative simulant/shoot pack16 may be used for testing purposes. However,
               the contracting officer accepted a PDM as contractually compliant prior to
               contract award. The purchase description also states, “Current production
               items submitted with qualifying FAT data may be considered in the
               determination of reducing additional FAT verification by the Government.”
               This contract language indicates that the FAT may be reduced, not eliminated,
               and our review of the contract file indicated the FAT was never performed
               after contract award. As a result, although the contracting file included the
               FAT letter that the PEO mentioned, we do not believe it met the intent of the
               FAR or the requirements of the purchase description.

            10. W91CRB-05-F-0072 (DAPs)17 – The PEO stated that FAT was conducted on
                December 3, 2004, at H.P. White Laboratory, Incorporated and was certified
                after the fact by the contracting officer in a letter dated June 16, 2006. See
                No. 9 for our audit response.

            11. W91CRB-05-F-0086 (ESAPI) – The PEO stated that verification of FAT was
                certified by the contracting officer in a letter dated September 7, 2005. As
                stated in our draft report, we looked through contract files for approvals or
                disapprovals of requests for waivers or deviation from contract requirements.
                This letter and documentation to support the FAT results were not included in
                the contracting file; the letter was provided by the PEO after we completed
                our review. Although we were not able to validate the test results, we updated
                the report to remove this order from the list of contracts that did not complete
                FAT.

            12. W91CRB-04-D-0204 (OTV Retrofit) – The PEO stated that FAT was
                conducted on December 3, 2004, at H.P. White Laboratory, Incorporated and
                was certified after the fact by the contracting officer in a letter dated June 16,
                2006. See No. 9 for our audit response.

            13. W91CRB-04-D-0014 (DAPs) – The PEO stated that no FAT letter was issued
                by the contracting officer, and that FAT was verified by test data from H.P.

16
      A simulant/shoot pack system is an alternative to the OTV that can be used to represent the ballistic
     resistant materials of the OTV for testing purposes.
17
      Although the PEO indicated that this order was for OTV Conversion Kits, it was originally awarded on
     June 3, 2005, for deltoid protector outershell, universal camouflage pattern. So, we grouped this order
     with DAPs. The order was subsequently modified on June 10, 2005, to cancel the original line and add a
     new line ordering OTV Conversion Kits.



                                                        41
       White Laboratory, Incorporated on March 13, 2003. This order contained no
       purchase description to accompany the contract; therefore, if testing was
       completed, the test facility would not have known what specifications to test
       against. Based on this information and the lack of documentation in the
       contracting file, we cannot validate the PEO’s statement that FAT was
       verified on March 13, 2003.

    14. W91CRB-06-D-0024 (OTV Retrofit) – The PEO stated that previous FAT
        was conducted on December 3, 2004, at H.P. White Laboratory, Incorporated
        and was certified after the fact by the contracting officer in a letter dated
        June 16, 2006. See No. 9 for our audit response.

    15. W91CRB-06-D-0029 (ESBI and Carrier) – The PEO stated that a FAT was
        verified and certified by the contracting officer in a letter dated August 16,
        2006. For this contract, the FAT “production is authorized” certification was
        based on PDM samples submitted to the testing facility on May 12, 2006,
        prior to contract award. As noted in the report, the FAR states that PDMs will
        be used to determine only the responsiveness of the bid and not to determine a
        bidder’s ability to produce the required items. Further, the contract states,
        “The contractor shall deliver 35 unit(s) of lot/item ESBI within 90 calendar
        days from the date of this contract to the Government at H.P. White
        Laboratory or U.S. Test Laboratory for first article tests.” Our review of the
        contract file indicated that this action was never completed, and the contract
        file did not contain any documentation to indicate the required FAT was
        waived.

The U.S. Army Research, Development and Engineering
  Command Comments on Draft Report and Audit Response
    The Commander, U.S. Army Research, Development, and Engineering Command
    (hereafter the Commander) provided comments on the draft report and the
    finding.

    Comments on the Adequacy of Management Controls. The Commander
    nonconcurred with the statement in the draft report that RDECOMAC had an
    internal control weakness in regards to not following the FAR in testing body
    armor and documenting contract decisions. The Commander stated that
    U.S. Army Research Development, and Engineering Command officials
    specifically nonconcur with the testing of body armor, and that the problem is that
    the contracting files may not have been documented to reflect the testing
    decisions and results, which RDECOMAC had planned to document no later than
    February 29, 2008. The Commander requested that the report be changed to
    remove the assertions that the RDECOMAC had an internal control weakness.

    Audit Response. Based on the Commander’s comments, we revised the
    discussion on internal controls in the final report. The report now states,
    “Specifically, we reviewed body armor component contract files to determine
    whether they contained the elements required by the FAR. We identified material
    internal control weaknesses at RDECOMAC, as defined by DoD Instruction
    5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4,


                                        42
2006. The weaknesses related to the documentation of FAT requirements and
results in 13 of 28 Army contracts reviewed. Although RDECOMAC had
internal control procedures in place, we identified weaknesses resulting in
decisions not always being properly documented in the contract files.
Specifically, RDECOMAC officials did not follow the FAR in maintaining
contract files to support FAT decisions and results. Implementing our
recommendations will improve the quality of the contract files to support
informed decisions. A copy this report was provided to the senior official in
charge of internal controls at RDECOMAC.”

Comments on Market Research. The Commander nonconcurred with the
statement in the draft report that market research was not documented as required
by the FAR. The Commander stated that FAR Part 10 prescribes policies and
procedures that agencies must take with regard to market research. Specifically,
FAR 10.002(e) states that agencies should document the results of market
research in a manner appropriate to the size and complexity of the acquisition.
Further, FAR 4.803 provides examples of records normally contained in contract
files and, while market research is not specifically mentioned, acquisition
planning information is mentioned. The Commander stated that, in accordance
with the FAR, PM SEQ is the appropriate body for conducting and maintaining
documentation on body armor market research, and a RDECOMAC review of the
contract files indicated that market research was conducted and documented as
required.

Audit Response. Market research is the foundation for building an effective
solicitation and a successful contract. FAR 10.002(a) states, “Acquisitions begin
with a description of the Government’s needs stated in terms sufficient to allow
conduct of market research.” Because market research is the foundation for
building an effective solicitation and a successful contract, agencies are required
to conduct market research at the earliest stages in the acquisition process. The
goal of market research is to develop the most suitable approach to acquiring,
distributing, and supporting supplies and services.

Given the value for the eight contracts and orders identified in the report
(approximately $2.9 billon), and the complexity of the body armor components
purchased, the information provided in the respective acquisition plans does not
adequately describe the most suitable approach for acquiring, distributing, and
supporting body armor components. The respective acquisition plans merely
stated that market research was conducted; the statement does not satisfy FAR
requirements to document the results of market research in a manner appropriate
to the size and complexity of this acquisition. Specifically, market research
should summarize the activities undertaken by those conducting the market
research so that the contracting files constitute a complete history of the actions
taken and provide a basis for informed decisions made during the acquisition. To
accomplish this, market research should, for example, document the methodology
used for compiling and refining the lists of potential suppliers, a summary of the
industry sources contacted, the types of information obtained, the price ranges
discovered, the possible reasons for variations, and the potential for determining a
fair market price.




                                     43
Comments on Source Selection. The Commander nonconcurred with the
determination in the draft report that the Request for Quote (solicitation) for FSS
Order W91CRB-04-D-0014 contained inadequate evaluation factors. The
Commander stated that the solicitation and an amendment to the solicitation
together provided the offerors with a purchase description and evaluation factors,
which were considered adequate by the contracting officer and the customer.

Audit Response. The Request for Quote is a request for information, used in
simplified acquisitions, to communicate Government requirements to prospective
contractors. The Request for Quote describes what the Government is buying,
what information the offeror must provide, and what strategy will be used to
evaluate proposals.

FAR Subpart 15.3 states that the source-selection authority shall approve the
source-selection strategy before the solicitation is released, a step that was not
evident during our review of this FSS order. Specifically, evaluation factors were
not issued until May 12, 2004, in an amendment to the solicitation. It is
understood that solicitations and amendments reflect total information regardless
of their effective dates. However, such inconsistencies may result in less
advantageous offers, delay the acquisition, or undermine offerors’ confidence in
the process. Therefore, we stand behind the statement made in the draft report.
Issuing these evaluation factors during the solicitation facilitates an equitable,
impartial, and comprehensive evaluation against the solicitation requirements.

Comments on Price Reasonableness and Requesting Discounts. The
Commander nonconcurred with our statements that Army officials did not
actively request a discount and document why one was not requested, and that
there was no evidence that the price was reasonable for two orders. The
Commander specifically stated that the Army requested and received discounts
and encouraged discounts from all vendors, and that the price the Army received
was reasonable with sufficient evidence to support the decision.

The Commander stated that the awardee for W91CRB-04-P-0169 proposed a unit
price of $285.00, which was already discounted from the FSS published price of
$325.00 per unit, resulting in a 12.3-percent discount. For Contract
W91CRB-04-D-0014, the Commander stated that the documentation indicated
that four offers were received. The awardee was the only offeror determined
technically acceptable, and the awardee’s price further reflected a 12.3-percent
discount from its FSS historical published price. The Commander also stated that
the awardee further discounted the price by maintaining it for the entire 36-month
contract period, thereby absorbing all price increases for inflation in materiel,
subcontractor wages, and shipping and testing. The Commander stated that
RDECOMAC also considered the Army’s critical need for the DAPs and the fact
that the awardee was the only vendor technically qualified to meet the Army’s
accelerated delivery schedule. According to the Commander, the awardee of
Contract W91CRB-04-D-0014 offered multiple discounts; hence, any further
requests for discounts would have been futile. The Commander stated that the
contracting officer determined that the awardees price was fair and reasonable
based on a comparison of the competitive prices received and the discounts
offered. As a result, the Commander disagreed with the statement that
RDECOMAC contracting officials were not prudent in price determination and


                                    44
the use of Government funds. He concluded that the contracting officer exercised
sound business judgment in all business cases, ensuring that the interests of the
taxpayer and the warfighter were well served.

Audit Response. Contracting officials have the responsibility to ensure that fair
and reasonable prices are paid. For fixed-price contracts, the evaluation is usually
as simple as comparing the offered prices to ensure they are fair and reasonable.
Fixed-price contracts should also be evaluated for appropriateness to what is
being offered. During our review, we determined that contracting officials
inadequately determined price reasonableness for Contract W91CRB-04-D-0014
based on the price history of Contract W91CRB-04-P-0169, a contract that did
not require price analysis because it was awarded using simplified acquisition
procedures. While there was evidence the previous price was used, there was no
evidence in the contract file that the historical price was fair and reasonable.
Because we have only statements from the Commander and other officials
regarding the discounts and price determination, we cannot determine whether a
fair and reasonable price was paid.




                                    45
Appendix H. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Resources and Analysis
  Director, Defense Procurement and Acquisition Policy

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
  Program Executive Officer, Soldier
  Commander, U.S. Army Research, Development and Engineering Command
      U.S. Army Research, Development and Engineering Command Acquisition Center

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Combatant Commands
Commander, U.S. Central Command
Commander, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command
Commander, U.S. Special Operations Command

Other Defense Organizations
Director, Defense Logistics Agency




                                          46
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform
The Honorable Louise M. Slaughter




                                      47
Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) Comments




                       49
50
Program Executive Office Soldier Comments




                     51
Final Report
 Reference




Revised
pages 31
& 39




               52
     Final Report
      Reference




     Revised
     pages 32 &
     41




53
54
U.S. Army Research, Development and
Engineering Command Comments




                     55
Final Report
 Reference




Revised
page 3


Revised
page 17




               56
     Final Report
      Reference




     Revised
     page 17




57
58
59
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Joint and Overseas Operations prepared this report. Personnel of the Department
of Defense Office of Inspector General who contributed to the report are listed
below.

Paul J. Granetto
Robert F. Prinzbach II
Donald A. Bloomer
Deborah G. Crosier
Melinda M. Oleksa
Kenneth W. Sokol
Shaun B. Jeffery
Andrea L. Hill
Leon D. Bryant
Jessica R. Frederick
Bryan M. Chavez
Alan J. Woolard
Jessica R. Crotts
Monica L. Noell
Allison E. Tarmann
